              Systemic Weaknesses Need to Be Addressed
                Before the On-Line E-File Application Is
                         Released to the Public

                                     June 2004

                       Reference Number: 2004-40-110




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                          June 9, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                      CHIEF INFORMATION OFFICER


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Systemic Weaknesses Need to Be
                                      Addressed Before the On-Line E-File Application Is Released
                                      to the Public (Audit # 200340058)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       On-Line Electronic Filing (e-file) Application. The overall objective of this review was to
       determine whether the On-Line e-file Application functioned as intended, including
       providing third-party users with the ability to easily navigate through the application.
       In the IRS Restructuring and Reform Act of 1998,1 the Congress challenged the IRS to
       promote its e-file programs to the point at which 80 percent of all tax returns would be
       filed electronically by the 2007 Filing Season.2 To help meet the Congressional
       mandate, the IRS created the e-Services project that, when completed, will provide a
       set of web-based business products as incentives to third parties to increase e-file. One
       of the initial e-Services products planned for release is the On-Line e-file Application,
       which will provide third parties with a faster, more accurate way to apply to become
       e-file providers3 and make revisions to existing application information via the Internet.
       The planned release of the On-Line e-file Application prior to the start of the 2004 Filing
       Season did not occur. As a result, neither the IRS nor third parties received the key
       benefits expected from the On-Line e-file Application. Third parties were not provided
       with the ability to prepare and submit Applications to Participate in the IRS e-file


       1
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       2
         The filing season is the period from January through mid-April when most individual income tax returns are filed.
       3
         An e-file provider can be either an Electronic Return Originator, a transmitter who transmits the electronic return to
       the IRS, an Intermediate Service Provider, a software developer of electronic filing software, or a reporting agent.
                                             2

Program (Form 8633) or to make revisions to existing application information via the
Internet.
Although the On-Line e-file Application was not released for public use as planned, the
IRS was successful in combining individual and business e-file applications into one
e-file application. This allows third parties to submit one application to e-file both
individual and business tax returns. The IRS also combined six separate databases
that previously housed applicant information into a single database, allowing IRS
employees easier access to e-file applicant information.
However, systemic weaknesses need to be addressed before the On-Line e-file
Application is released for public use. The current On-Line e-file Application does not
have sufficient procedures and controls to ensure all information is protected and
applications are processed effectively and timely. In addition, the IRS has not ensured
the system has sufficient capacity for future growth or developed procedures to address
those third parties that choose to submit their applications on paper. Finally, the system
might not be sufficiently user-friendly to ensure third parties use the new On-Line e-file
Application.
To address these issues, we recommended the Commissioner, Wage and Investment
Division, ensure issues are effectively addressed before the On-Line e-file Application is
made available for public use. The Commissioner should also ensure guidelines are
updated to include procedures for the new application process, including applications
e-filed and submitted on paper, and obtain feedback from internal users to identify
issues that may affect the ease with which third parties can use the Application once it
is released to the public.
Management’s Response: IRS management agreed with our recommendations and
has already initiated or completed corrective actions. Specifically, a set of work lists
were designed to assist employees in determining the status of e-file applications, and
management reports are being developed. Further, a draft Desk Guide was developed,
which provides hands-on tutorials for using the system and guidance on how to use the
work lists and other available reports to assist in ensuring the effective and timely
processing of all e-file applications.
A risk assessment was conducted on the e-Services Project to assure that the e-file
application information is adequately protected; the IRS will communicate the
importance of providers updating their account information to ensure sensitive
information is not subject to unauthorized access; and an analysis was conducted of
capacity requirements and monitoring is in place to provide a warning in the event the
system gets to 90 percent capacity. In addition, the IRS is currently revising the Internal
Revenue Manual to outline the policy and procedures related to the application process
for electronic and paper returns, while the previously mentioned Desk Guide will provide
employees with procedures for using the e-file application online via the Internet.
Also, employee insights and suggestions were encouraged during project development
and throughout the startup. Whenever technically feasible, these suggestions were
adopted. The IRS also received and reacted to input from external users during the
                                           3

initial testing phase prior to the release. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage & Investment Income
Programs), at (202) 927-0597.
                       Systemic Weaknesses Need to Be Addressed Before the
                         On-Line E-File Application Is Released to the Public




                                                 Table of Contents


Background ............................................................................................... Page 1
The On-Line E-File Application Was Not Released to
the Public in Time for the 2004 Filing Season ........................................... Page 3
Systemic Weaknesses Need to Be Addressed
Before Full Implementation........................................................................ Page 6
         Recommendation 1: ...................................................................... Page 9
         Recommendations 2 and 3: .......................................................... Page 11

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures ............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 17
             Systemic Weaknesses Need to Be Addressed Before the
               On-Line E-File Application Is Released to the Public

                              In the Internal Revenue Service (IRS) Restructuring and
Background
                              Reform Act of 1998,1 the Congress challenged the IRS to
                              promote its electronic filing (e-file) programs to the point at
                              which 80 percent of all tax returns would be filed
                              electronically by the 2007 Filing Season.2 Unfortunately, if
                              the IRS’ current systems are not updated and refined, this
                              goal will not be met. Therefore, to help meet the
                              Congressional mandate, the IRS created the e-Services
                              project.
                              The e-Services project will provide a set of web-based
                              business products, accessed through the IRS web site, as
                              incentives to third parties to increase electronic filing. The
                              project focuses on fostering easy-to-use electronic products
                              and services, targeted at specific practitioner segments that
                              inform, educate, and provide service to the taxpaying public.
                              E-Services products include agency-wide registration,
                              authorization, authentication, and application procedures for
                              tax practitioners. In addition, select Electronic Return
                              Originators (ERO)3 will be provided with On-Line Power of
                              Attorney Application, verification of Taxpayer
                              Identification Numbers, transcript delivery, and electronic
                              account resolution. Releases of the e-Services project were
                              initially scheduled to begin in June 2002 but were delayed
                              until August 2003.
                              One of the initial e-Services products planned for release is
                              the On-Line e-file Application, which will provide third
                              parties with the ability to prepare, submit, and revise the
                              Application to Participate in the IRS e-file Program
                              (Form 8633) via the Internet. Form 8633 is the form third




                              1
                                Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                              sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                              23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                              2
                                The filing season is the period from January through mid-April when
                              most individual income tax returns are filed.
                              3
                                EROs originate the electronic submission of income tax returns to the
                              IRS. An ERO may originate the electronic submission of income tax
                              returns that are either prepared by the ERO firm or collected from
                              taxpayers.
                                                                                              Page 1
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 parties use to apply to the IRS to become e-file providers.4
                 Providing third parties the ability to apply electronically is
                 part of the IRS’ effort to make the entire e-file process
                 electronic. The On-Line e-file Application was originally
                 scheduled for release in 2002. However, as of the end of
                 our testing, it had not been released for third party use.
                 For third parties, the new On-Line e-file Application will
                 provide a faster, more accurate way to apply to become
                 e-file providers and make revisions to existing application
                 information via the Internet. For the IRS, it will provide
                 resource savings since IRS employees will no longer have to
                 manually input the information from paper applications into
                 the system. Instead, third parties will be entering
                 application information via the Internet.
                 Once the IRS receives an application or updated
                 information, it performs a series of checks to ensure the
                 applicant meets the qualifications to participate in the
                 e-file Program. If the applicant successfully passes these
                 checks, a unique identification number is assigned to the
                 applicant. This unique number identifies the entity and
                 location of the e-file provider and is required on all e-file tax
                 returns sent to the IRS.
                 This review was performed in the Electronic Tax
                 Administration and Business Systems Modernization offices
                 in the Modernization and Information Technology Services
                 organization at IRS National Headquarters in Washington,
                 D.C., and at the Electronic Filing Unit in the Andover
                 Submission Processing Site during the period October 2003
                 through February 2004. The audit was conducted in
                 accordance with Government Auditing Standards. We were
                 unable to complete our audit tests to determine whether the
                 On-Line e-file Application was functioning as intended,
                 including providing third-party users with the ability to
                 easily navigate through the application, because the On-Line
                 e-file Application was not released for public use before the
                 completion of our testing. Detailed information on our audit

                 4
                   An e-file provider can be either an ERO, a transmitter who transmits
                 the electronic return to the IRS, an Intermediate Service Provider who
                 processes tax return information and sends to a transmitter, a software
                 developer of electronic filing software, or a reporting agent who
                 electronically prepares Federal tax forms for employers.
                                                                                  Page 2
                 Systemic Weaknesses Need to Be Addressed Before the
                   On-Line E-File Application Is Released to the Public

                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  Neither the IRS nor third parties received the key benefits
The On-Line E-File Application
                                  expected from the On-Line e-file Application since it was
Was Not Released to the Public
                                  not released as planned at the start of the 2004 Filing
in Time for the 2004 Filing
                                  Season. Third parties were not provided with the ability to
Season
                                  prepare and electronically submit Forms 8633 or make
                                  revisions to existing application information via the Internet.
                                  In addition, the IRS was unable to save resources resulting
                                  from third parties rather than IRS employees entering
                                  application information. Instead, as of December 30, 2003,
                                  the IRS had spent an additional 23,825 hours in labor, at a
                                  cost of approximately $377,000, because the On-Line e-file
                                  Application was only released for use internally.
                                  Although the On-Line e-file Application was not released to
                                  the public as planned, the IRS was successful in:
                                  •   Combining the individual and business e-file
                                      applications into one application. Previously, if third
                                      parties wanted to e-file both individual and business tax
                                      returns, they would have to submit separate e-file
                                      applications. Third parties now have to submit only one
                                      application to e-file both individual and business tax
                                      returns.
                                  •   Combining six separate databases that previously
                                      housed applicant information into a single database
                                      referred to as the Third Party Data Store (TPDS). This
                                      allows IRS employees easier access to e-file applicant
                                      information. The TPDS is an electronic database that
                                      houses all pertinent information on third parties that
                                      interact with the IRS through e-Services. For example,
                                      this database contains information on all registered
                                      users5 and e-file providers, along with information on
                                      their e-file activity.




                                  5
                                   A registered user is an entity, individual, or business that has
                                  completed the authentication process and has become a user of
                                  e-Services.
                                                                                                      Page 3
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 During the 2003 IRS Tax Forums,6 the IRS Commissioner
                 made a commitment to tax professionals that the On-Line
                 e-file Application would be in operation for the 2004 Filing
                 Season. This required the IRS to release the On-Line e-file
                 Application for third-party use by August 2003 to allow
                 sufficient time to process Forms 8633 before the start of the
                 2004 Filing Season. The IRS recommends applicants
                 submit Forms 8633 at least 45 days before they wish to
                 participate in the e-file Program.
                 The On-Line e-file Application was released for IRS
                 employee use but did not work as expected
                 The IRS first implemented the On-Line e-file Application
                 internally, shutting down the previous application process
                 on September 12, 2003, and deploying the new On-Line
                 e-file Application 12 days later. However, IRS management
                 immediately determined that the On-Line e-file Application
                 was not working as expected.
                 The IRS tracked and documented 263 problems that
                 surfaced from September to December 2003. As of
                 December 31, 2003, the IRS had been unable to resolve
                 22 of the 263 identified issues. Unresolved problems
                 included the:
                 •   Issuance of unique identification numbers to more than
                     one e-file provider.
                 •   Inability to change or add certain fields in the TPDS.
                     For example, IRS employees were unable to update
                     certain company names in the database.
                 •   Inability to access the system, at times, due to
                     connection problems.
                 Because the system did not work as expected, the IRS
                 experienced a backlog of paper applications that at one time
                 totaled approximately 10,000 new or revised applications.
                 To process these applications, the IRS spent approximately
                 $377,000 in extra labor costs. Applicants in the backlog


                 6
                   The IRS Nationwide Tax Forums offer the tax professional community
                 an opportunity to attend seminars, workshops, and focus groups that
                 discuss new IRS initiatives, such as e-Services, along with other issues
                 that affect their profession.
                                                                                 Page 4
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 were burdened when their applications were not timely
                 processed. Some of the backlogged applications took from
                 10 to 12 weeks to process, whereas applications processed
                 using the prior system were completed within 7 weeks. In
                 addition, applicants did not know the status of their
                 applications because the IRS was unable to issue letters
                 confirming their receipt. Some applicants submitted
                 duplicate applications fearing the original ones had been lost
                 in the mail, while others contacted the e-file help desk.
                 The increased costs and taxpayer burden caused by the
                 backlog were a one-time occurrence caused by a number of
                 factors. For example:
                 •   The IRS did not ensure the On-Line e-file Application
                     was adequately tested prior to releasing it for use.
                     Although management followed the test plan, their plans
                     did not include a “shakedown” period to allow them to
                     identify and resolve problems once the system was in
                     place.
                 •   IRS employees did not have the required 30-day period
                     in which to learn the new process. Plans required a
                     30-day period for IRS employees that process e-file
                     applications to become familiar with the On-Line e-file
                     Application prior to using the system to process live
                     data. This familiarity period never occurred. Instead,
                     IRS employees were instructed to immediately begin
                     using the On-Line e-file Application.
                 In spite of the numerous problems associated with the
                 deployment of the On-Line e-file Application, IRS
                 employees from various offices and functions worked
                 diligently to ensure e-file applications were input and
                 processed in time for the 2004 Filing Season. Because of
                 their exemplary efforts, approximately 30,700 e-file
                 applications were processed, ensuring that applicants were
                 able to e-file tax returns for the 2004 Filing Season. We
                 commend these employees on their dedication and hard
                 work. The processing of these applications before the
                 2004 Filing Season was critical to the success of the IRS
                 e-file Program.



                                                                        Page 5
                  Systemic Weaknesses Need to Be Addressed Before the
                    On-Line E-File Application Is Released to the Public

                                   Specific recommendations are not being made as we have
                                   previously reported on testing deficiencies for e-Services
                                   and other projects.7

Systemic Weaknesses Need to Be     The current On-Line e-file Application process does not
Addressed Before Full              have sufficient procedures and controls to ensure all e-file
Implementation                     provider information is protected and applications are
                                   processed effectively and timely. In addition, the IRS has
                                   not ensured the system has sufficient capacity for future
                                   growth and has not developed procedures to address those
                                   third parties that choose to submit their applications on
                                   paper. Finally, the system might not be sufficiently
                                   user-friendly to ensure third parties can easily use the new
                                   On-Line e-file Application.
                                   These systemic weaknesses were not identified because the
                                   IRS did not ensure the On-Line e-file Application was
                                   adequately tested prior to releasing the Application for
                                   internal use. IRS management advised us that IRS protocol
                                   did not provide for this specific testing. Plans required a
                                   30-day period for IRS employees that process applications
                                   to become familiar with the On-Line e-file Application prior
                                   to using the Application to process live data. However, as
                                   stated, this familiarity period never occurred.
                                   Management controls should provide reasonable assurance
                                   that management’s objectives are being achieved and
                                   resources protected. This includes effective management
                                   information system reports that ensure controls are working
                                   and provide information with which to gauge the success of
                                   the program. System controls also include restrictions on
                                   users to allow access only to necessary system functions.
                                   There are no effective management information system
                                   reports to ensure all applications are processed
                                   effectively and timely
                                   The On-Line e-file Application process was designed to
                                   produce work lists8 and notify employees when manual


                                   7
                                     Testing Practices for Business Systems Modernization Projects Need
                                   Improvement (Reference Number 2003-20-178, dated September 2003);
                                   and Requirements Changes and Testing Delays Have Further Increased
                                   the Costs and Delayed the Benefits of the E-Services Project (Reference
                                   Number 2004-20-036, dated February 2004).
                                                                                                  Page 6
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 intervention is needed to complete the application process.
                 Although the work lists were required to be available at the
                 time the system was released for internal use, the function
                 did not operate as intended. Work lists were not
                 automatically generated, so employees did not know there
                 were e-file applications needing manual intervention to
                 complete the application process.
                 In addition, the new system provided other management
                 information reporting capabilities, but IRS management was
                 not aware of these capabilities. Documentation explaining
                 the reporting capabilities of the new system had not been
                 provided to management when the system was released. At
                 the beginning of January 2004, the developer of the system
                 generated the first ad hoc report. This was an aged report
                 that identified all applications that had been in the system
                 for 30 or more days without being completed. This listing
                 was 176 pages long and listed over 8,500 applicants. To
                 ensure these applicants would be able to e-file, IRS
                 employees manually worked this listing and issued the
                 required unique identification numbers to the qualified
                 applicants.
                 Once the work list feature is available, the IRS will need to
                 develop procedures on how to use the work lists and other
                 available reports to assist in ensuring the effective and
                 timely processing of all e-file applications.
                 There is a risk of unauthorized access to e-file providers’
                 information
                 IRS procedures state that if an e-file provider’s application
                 information (such as the provider’s address or telephone
                 number or the individuals listed on the provider’s
                 application) changes, the e-file provider must notify the IRS
                 within 30 days of the change. In the prior system, only IRS
                 employees had access to the system, creating a minimal risk
                 of unauthorized accesses to system information, including
                 sensitive information such as Social Security Numbers.
                 When the new system is released for third-party use, third
                 parties will be able to access their e-file provider

                 8
                  A work list is an electronic work assignment vehicle that alerts
                 employees when applications need manual intervention to complete
                 processing.
                                                                               Page 7
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 information via the Internet. If the application information
                 is not timely updated, the system will not prevent an e-file
                 provider who changes firms from accessing his or her
                 former firm’s e-file application information. Access to the
                 former firm’s information would allow the e-file provider to
                 access sensitive information and potentially make
                 unauthorized changes to other application information.
                 IRS management did not ensure all e-file provider
                 information used in the new system was accurate and
                 complete. Although it is the firm’s responsibility to keep its
                 e-file application information current, this will be even more
                 important when third parties are able to access this system.
                 There is no assurance that the capacity of the TPDS will
                 meet future expected growth of the system
                 The original capacity requirement for the TPDS, when
                 planned in 2001, was to support 200,000 third-party
                 organizations (such as EROs.) This capacity level was a
                 performance requirement in the system specifications.
                 However, management was unable to provide
                 documentation confirming that this initial capacity
                 requirement was met.
                 Because the original capacity specifications were developed
                 several years earlier, management was not aware of whether
                 subsequent revisions had been made to the system’s original
                 requirements. Ensuring the TPDS can adequately support
                 the volume of third-party organizations will be of utmost
                 importance as the growth in e-file continues and other
                 factors, such as states mandating e-filing, result in more
                 individuals becoming e-file providers.
                 There are no procedures for processing e-file
                 applications submitted on paper
                 Although the IRS prefers that third parties apply to become
                 e-file providers on-line, once the On-Line e-file Application
                 is released, the IRS will still allow e-file applications
                 (Form 8633) to be submitted on paper. However,
                 procedures have not been developed to address third parties
                 that choose to submit their e-file applications on paper. For
                 example, the prior system issued interim letters to the
                 applicants to advise them that their applications had been
                 received and were being processed. The IRS has not
                                                                        Page 8
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                 developed procedures for the new system to issue interim
                 letters to e-file applicants because its primary focus has been
                 on the On-Line e-file Application process and making third
                 parties aware of the advantages of e-filing Form 8633.
                 The On-Line e-file Application might not be sufficiently
                 user-friendly to ensure third parties can easily use it
                 Although we were unable to completely test the application
                 process to assess its usability, we observed employees using
                 the system and conducted an anonymous survey of
                 employees that used both the prior system and the new
                 system. Employee comments on the new system include:
                 •   It takes two to four times longer to input an e-file
                     application with the new system than it did using the
                     prior system.
                 •   It requires more screens, clicks, and input than the prior
                     system.
                 •   It is not user-friendly and requires multiple re-inputs of
                     the same information.
                 •   The screens on the new system should be only two
                     pages and look just like the Form 8633. (Note: The new
                     system has 12-13 screens.)
                 If the system is not user-friendly or is cumbersome to use,
                 third parties might choose not to use the system or revert to
                 submitting Forms 8633 and updates on paper.

                 Recommendations

                 The Commissioner, Wage and Investment Division, should
                 work with the Chief Information Officer to:
                 1. Ensure that, before the On-Line e-file Application is
                    released to the public:
                     a. The system has sufficient management information
                        reports to process applications timely and the reports
                        are being generated as intended, including
                        developing procedures for generating and using
                        work lists and management information reports.


                                                                         Page 9
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                     Management’s Response: On March 10, 2004, the
                     PRIME9 released a set of work lists designed to assist
                     the employees in determining the status of e-file
                     applications. In addition, the PRIME is currently
                     developing management reports based on the criterion
                     submitted by the IRS. Lastly, in an effort to ensure that
                     the employees are familiar with the various work lists
                     and management information reports, a draft Desk
                     Guide was developed. This Guide provides hands-on
                     tutorials for using the system, as well as guidance on
                     how to use the work lists and other available reports to
                     assist in ensuring the effective and timely processing of
                     all e-file applications.
                     b. A risk assessment is conducted to evaluate the
                        access controls and determine what actions, if any,
                        are necessary to ensure e-file application information
                        is adequately protected. At a minimum, actions
                        taken should include educating e-file providers on
                        the importance of updating their account
                        information.
                     Management’s Response: A risk assessment was
                     conducted on the e-Services Project to assure that the
                     e-file application information is adequately protected. In
                     addition, the Electronic Tax Administration Office will
                     communicate the importance of providers updating their
                     account information upon changes within their business
                     to ensure sensitive information is not subject to
                     unauthorized access. This information will be
                     disseminated through various channels, such as Quick
                     Alerts, an e-file Article, and tax forums.
                     c. An analysis is completed to ensure the system meets
                        minimum capacity requirements and has the
                        capability to meet future capacity demands resulting
                        from the expansion of the e-file Program.
                     Management’s Response: An analysis was conducted as
                     part of the System Integration Testing and Performance
                     testing. The system is currently operating at 25 percent


                 9
                  The IRS is working with a PRIME contractor, the Computer Sciences
                 Corporation, to develop and deploy modernized systems.
                                                                           Page 10
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                    of its total capacity. The IRS and PRIME monitor the
                    disk allocation. The team will provide a warning in the
                    event the system gets to 90 percent disk space.
                 2. Ensure guidelines are updated to include procedures for
                    the new application process, including applications
                    e-filed and submitted on paper.
                 Management’s Response: The Chief Information Officer
                 and the Commissioner, Wage and Investment Division, are
                 currently revising the Internal Revenue Manual (IRM) and
                 developing the previously mentioned Desk Guide for use by
                 the employees working IRS e-File Applications. The
                 updated IRM will outline the policy and procedures related
                 to the application process for electronic and paper returns.
                 The Desk Guide will provide employees with procedures for
                 using the e-File application online via the Internet.
                 3. Identify and address employee concerns that may affect
                    the ease with which third parties can use the application
                    once it is released to the public.
                 Management’s Response: Employee insights and
                 suggestions were encouraged during project development
                 and throughout the startup. Whenever technically feasible,
                 these suggestions were adopted. The IRS also received and
                 reacted to input from external users during the initial testing
                 phase prior to the release. Since the release of the product,
                 the level of acceptance has been positive. At this point in
                 the life cycle of this software, it is not necessary to make a
                 special effort to seek additional input from employees since
                 external users will become the primary users. This was
                 completed April 26, 2004.




                                                                        Page 11
                 Systemic Weaknesses Need to Be Addressed Before the
                   On-Line E-File Application Is Released to the Public

                                                                                   Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service’s
(IRS) On-Line Electronic Filing (e-file) Application was functioning as intended, including
providing third-party users with the ability to easily navigate through the application. To
accomplish this objective, we:
I.     Determined the goals and objectives of the On-Line e-file Application.
       A. Determined the goals and expectations the Office of Electronic Tax Administration
          has for the On-Line e-file Application.
       B. Reviewed and analyzed the documentation on the Functional Specification Package,
          project documentation, and implementation testing to determine what and how the
          program was designed, implemented, and expected to operate.
       C. Determined the impact to the IRS if expectations for the On-Line e-file Application
          are not met.
II.    Determined if the On-Line e-file Application system was adequately tested prior to
       implementation and if results of testing were used to make changes/modifications prior to
       release.
       A. Determined if usability testing was performed and if results were used to improve the
          ability of third parties to use the application.
       B. Determined if acceptance testing was done and if all reported defects were corrected
          and/or explained.
III.   Determined if key issues were adequately addressed during the implementation process
       to ensure the application is functioning as intended.
       A. Determined if internal users were provided access to the system (familiarity venue)
          before the system was used for production.
       B. Determined if parallel processing of the old and new systems was used until the new
          system was functioning as intended.




                                                                                        Page 12
                Systemic Weaknesses Need to Be Addressed Before the
                  On-Line E-File Application Is Released to the Public

                                                                                Appendix II


                           Major Contributors to This Report

Michael Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Audit Manager
Edith Lemire, Senior Auditor
Grace Terranova, Senior Auditor
Andrea McDuffie, Auditor




                                                                                      Page 13
               Systemic Weaknesses Need to Be Addressed Before the
                 On-Line E-File Application Is Released to the Public

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Communication and Liaison Division CL
Chief, Information Technology Services OS:CIO:I
Director, Customer Account Services SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance SE:W:S
Chief Business Architect and Business Strategist SE:W:CAS:BSBA
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Director, Submission Processing SE:W:CAS:SP
Director, Internet Development Services OS:CIO:I:ET:D
Director, Strategic Services OS:CIO:I:ET:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        GAO/TIGTA Liaison, Wage and Investment Division W:S:PA
        Chief, Information Technology Services OS:CIO:I




                                                                                 Page 14
                   Systemic Weaknesses Need to Be Addressed Before the
                     On-Line E-File Application Is Released to the Public

                                                                                   Appendix IV


                                         Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Inefficient Use of Resources – Actual; approximately $377,000 extra labor costs
        (see page 3).
    •   Taxpayer Burden – Potential; approximately 30,700 Electronic Filing (e-file) applicants
        affected (see page 3).
Methodology Used to Measure the Reported Benefit:
Based on the Internal Revenue Service (IRS) Work Planning & Control Program Analysis
Report (PCC 6240), the Andover Submission Processing Site expended an additional
unscheduled 17,635 staff hours (including detailed employees) from September 13 through
December 27, 2003, to process Applications to Participate in the IRS e-file Program
(Form 8633).
    •   General Schedule (GS)-7 tax examiners1 – Calendar Year (CY) 2003 Boston pay rate for
        GS-7 Step 5 = $18.13 per staff hour x 3,991 hours over schedule = $72,356.83.
    •   GS-5 clerks2 – CY 2003 Boston pay rate for GS-5 Step 5 = $14.64 x 1 hour under
        schedule = ($14.64).
    •   Detailed GS-5 clerks3 – CY 2003 Boston pay rate for GS-5 Step 5 = $14.64 per staff hour
        x 13,645 hours over schedule = $199,762.80.
17,635 hours over schedule at a net cost of $272,104.99 ($72,356.83 - $14.64 + $199,762.80).
Based on the PCC 6240 for October 14 through December 27, 2003, the Austin Submission
Processing Site expended an additional unscheduled 8,574 staff hours for technical support.
    •   GS-7 tax examiners4 – CY 2003 Austin pay rate for GS-7 Step 5 = $17.29 per staff hour x
        8,574 hours over schedule = $148,244.46.




1
  Organization Code 38, Program Code 42710, Function Code 750.
2
  Organization Code 38, Program Code 42710, Function Code 760.
3
  Organization Code 38, Program Code 42711, Function Code 750.
4
  Organization Code 38, Program Code 42730, Function Code 750.
                                                                                          Page 15
                      Systemic Weaknesses Need to Be Addressed Before the
                        On-Line E-File Application Is Released to the Public

Based on the PCC 6240 for September 13 through December 27, 2003, the Andover Submission
Processing Site expended 2,384 fewer staff hours than scheduled for technical support.
      •   GS-7 tax examiners5 – 2003 Boston pay rate for GS-7 Step 5 = $18.13 per staff hours x
          2,384 hours under schedule = - $43,221.92.
6,190 hours over-scheduled hours at a net cost of $105,022.54 ($148,244.46 - $43,221.92).
Overall 23,825 hours at a net cost of $377,127.53 ($272,104.99 + $105,022.54).
There were approximately 30,700 e-file applications processed using the new system that did not
have an interim letter issued to acknowledge receipt of the application. The applicants did not
know the status of their applications, and processing took 10 to 12 weeks.




5
    Organization Code 38, Program code 42730, Function Code 750.


                                                                                          Page 16
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public

                                                         Appendix V


    Management’s Response to the Draft Report




                                                             Page 17
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 18
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 19
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 20
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 21
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 22
Systemic Weaknesses Need to Be Addressed Before the
  On-Line E-File Application Is Released to the Public




                                                         Page 23
